                                                NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

 Case Number: A09020008                                                                      Page 10f2


        We received an allegation that a program official (the Subjectl), who was a part­
        time "rotator,"2 was using his position to influence the funding of proposals to his
        laboratory at his home university (the University). During the investigation, we
        received an additional allegation that the subject had committed travel fraud by
        obtaining reimbursement from the University (and possibly two international
        companies) for NSF-related travel expenses reimbursed to the subject by NSF.
        Regarding the first allegation, we learned the subject's post-doctoral assistant (post­
        doc) had submitted a proposal that was pending, and the subject asked the assigned
        Program Director (PD) if he could sit in on the PD's panel that was reviewing his
        post-doc's proposal. The PDconsidered this inappropriate, and when the subject
        insisted on attending, the PD asked another program director in another directorate
        to handle the evaluation of the proposal. The subject also facilitated funding of his
        post-doc's Small Grant for Exploratory Research one day after it was submitted to
        NSF. After the last incident, the Division in which the subject worked implemented
        special procedures for handling proposals from the subject and his post-doc.
        Regarding the second allegation, we coordinated our investigation with the
        University and learned the subject received duplicative reimbursement from the
        University for certain NSF-related travel expenses for which NSF had already
        reimbursed the subject. The subject had a company through which he processed
        travel expenses, including the duplicative reimbursement requests to the University
        and reimbursement requests to two international companies. The subject received
        consulting fees from the international companies as well.
        We reviewed the subject's financial disclosures to NSF and learned he had not
        disclosed either his ownership of the company or his relationship as a consultant
        with the international companies. Similarly, he had not disclosed these financial
        interests to the UnIversity.
        Based on the programmatic issues, his false financial disclosures, and his
        duplicative travel reimbursements from the University, we recommended that NSF
        terminate his IPA agreement. NSF decided it would no longer use him as a
        program manager and ended his employment. The University referred the subject
        to its local District Attorney for prosecution. We referred the matter to the

             [redacted].
             1
             The subject was supported by NSF through Intergovernmental Personnel Act (IPA) grants to
             2
        the University. These grants were atypical in that the subject was supported by the grants for only
        59 days per year. The subject was employed by the Division of [redacted].



NSF OIG Form 2 (11/02)
                                     NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                       OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

Case Number: A09-08                                                        Page 2of2


    Department of Justice, but, because the duplicative funding was at the expense of
    the University (and the two international companies) and the district attorney was
    actively 'involved in the University's investigation, it declined prosecution. We are
    closing this case; however, we will consider appropriate administrative actions
    should the subject be convicted of fraud.
